No. 20-1077
IN THE

Supreme Court of the United
States
AMAZON.COM INC., ET AL.,
Petitioners,

v.
BERNARD WAITHAKA,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the First Circuit

BRIEF OF THE RESPONDENT BERNARD
WAITHAKA IN OPPOSITION TO CERTIORARI
Shannon Liss-Riordan, Counsel of Record
Harold Lichten
Adelaide H. Pagano
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, Massachusetts 02116
sliss@llrlaw.com
Counsel for Respondent
May 2021

i
QUESTION PRESENTED
For more than 100 years, goods have been understood to be “in interstate commerce” any time they
are being transported from one state to another, even
during legs of that journey that occur entirely within
a single state. Workers, therefore, have been understood to be “engaged in interstate commerce,” while
transporting such goods that are in the flow of interstate commerce—even if the worker is only responsible for a part of the interstate journey that occurs
within a single state.
The Federal Arbitration Act’s transportation
worker exemption carves out “contracts of employment of seamen, railroad employees, or any other
class of workers engaged in foreign or interstate
commerce.” 9 U.S.C. § 1 (emphasis added). After undertaking a careful analysis of the statutory text and
its “ordinary meaning at the time Congress enacted
the statute”, New Prime Inc. v. Oliveira, 139 S. Ct.
532, 539 (2019), the First Circuit held that “last-mile
delivery workers who haul goods on the final legs of
interstate journeys are transportation workers “engaged in ... interstate commerce,” regardless of
whether the workers themselves physically cross
state lines.” Waithaka v. Amazon.com, Inc., 966 F.3d
10, 26 (1st Cir. 2020). Thus, the question presented
is whether these “last-mile” drivers, who transport
goods in the flow of interstate commerce on the last
leg of their interstate journey, are engaged in interstate commerce for purposes of the FAA even when
they themselves do not physically cross state boundaries, in accordance with the longstanding meaning
of that phrase.

ii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
INTRODUCTION ....................................................... 1
COUNTER-STATEMENT OF THE CASE ................ 6
A. Factual Background .................................... 6
B. Procedural Background ............................... 7
REASONS FOR DENYING THE WRIT .................. 11
A. There is No Circuit Split Regarding the
Correct Interpretation of the Phrase
“Engaged in Foreign or Interstate
Commerce” in Section 1 of the FAA .......... 11
B. The First Circuit’s Approach Correctly
Gives Effect to the Language and
Purpose of the Statute and Follows Well
Established Precedent ............................... 20
i. The First Circuit Properly Looked to the
Ordinary Meaning of the Text of Section
1 at the Time of the FAA’s Passage ..... 21
ii. The First Circuit’s Opinion Gives
“Engaged in Commerce” a Meaning
Consistent with the Other Enumerated
Categories of Workers in Section 1:
Railroad Employees and Seamen ........ 23
iii. The First Circuit’s Reliance on the FELA
Cases Was Sound (and Consistent with
the Way Many Other Courts Have
Interpreted Similar Language) ............ 25

iii
C. This Case is a Poor Vehicle for the Court
to Interpret the Meaning of “Engaged in
Interstate Commerce” in Section 1 of the
FAA............................................................. 30
CONCLUSION.......................................................... 33

iv
TABLE OF AUTHORITIES
Cases
Am. Postal Workers Union, AFL-CIO v. U.S.,
Postal Serv.,
823 F.2d 466 (11th Cir. 1987) .............................. 31
Bacashihua v. U.S. Postal Service,
859 F.2d 402 (6th Cir. 1988) .......................... 29, 31
Cent. States, Se. & Sw. Areas Pension Fund v.
Cent. Cartage Co.,
84 F.3d 988 (7th Cir. 1996) ............................ 13, 29
Circuit City Stores Inc. v. Adams,
532 U.S. 105 (2001) ........................................ 25, 27
Co v. Di Donato,
256 U.S. 327 (1921) .............................................. 26
Eastus v. ISS Facility Servs., Inc.,
960 F.3d 207 (5th Cir. 2020) ......................... passim
Gulf Oil Corp. v. Copp Paving Co.,
419 U.S. 186 (1974) .............................................. 27
Hill v. Rent-A-Center, Inc.,
398 F.3d 1286 (11th Cir. 2005) .................. 4, 15, 16
Int’l Broth. of Teamsters Local Union No. 50 v.
Kienstra Precast, LLC,
702 F.3d 954 (7th Cir. 2012) .......................... 13, 29
Lenz v. Yellow Transp., Inc.,
431 F.3d 348 (8th Cir. 2005) .......................... 17, 18
New Prime Inc. v. Oliveira,
139 S. Ct. 532 (2019) ..................................... passim

v
Palcko v. Airborne Express, Inc.,
372 F.3d 588 (3d Cir. 2004) .................................. 31
People of State of New York ex rel.
Pennsylvania R. Co. v. Knight,
192 U.S. 21 (1904) ................................................ 28
Philadelphia & Reading Railway Co. v. Di
Donato,
256 U.S. 327 (1921) .............................................. 26
Philadelphia & Reading Railway Co. v.
Hancock,
253 U.S. 284, 40 S.Ct. 512 L.Ed. 907 (1920) ... 9, 23
Saxon v. Sw. Airlines Co.,
993 F.3d 492 (7th Cir. 2021) ......................... passim
The Sea Lark,
14 F. 2d 201 (W.D. Wash 1926)............................ 24
United States v. Mendoza,
464 U.S. 154 (1984) .............................................. 31
Wallace v. Grubhub Holdings, Inc.,
970 F.3d 798 (7th Cir. 2020) ................ 4, 13, 14, 30
Wisconsin Central Ltd. v. United States,
138 S.Ct. 2067 (2018) ........................................... 22
Statutes
Erdman Act,
55 Cong. Ch. 370 (1898), 30 Stat. 424 ................. 23
Federal Employers’ Liability Act of 1908
(“FELA”)
45 U.S.C.A. § 51 ............................................. passim

vi
Mass. Gen. L. c. 149 § 148 .......................................... 7
Mass. Gen. L. c. 151 §§ 1, 7 ........................................ 7
Transportation Act of 1920,
66 Cong. Ch. 91 (1920), 41 Stat. 456 ................... 23

1

INTRODUCTION
Only weeks ago, this Court denied another petition for certiorari from the same petitioner, presenting the same question, and making the same claims
of intercircuit conflict and error by the Court of Appeals. Rittmann v. Amazon.com, Inc., 971 F.3d 904
(9th Cir. 2020), cert. denied, No. 20-622, 2021 WL
666403 (U.S. Feb. 22, 2021). Just as the Court likely
recognized in denying certiorari in Rittmann, and
contrary to Amazon’s repeated assertions, the First
Circuit’s decision in this case creates no intercircuit
conflict and properly applies this Court’s guidance
and reasoning in New Prime Inc. v. Oliveira, 139 S.
Ct. 532, 539 (2019). As New Prime requires, the panel here (just like the panel in Rittmann) gave effect to
the ordinary meaning of Section 1’s statutory text
“engaged in interstate commerce” at the time of its
enactment in 1925 by looking to persuasive federal
precedent existing at the time of its passage. The
First Circuit correctly concluded that Amazon’s “lastmile” delivery drivers, who Amazon concedes perform
the same job duties as FedEx and UPS drivers, see D.
Ct. Dkt. 31-2, ⁋ 4, are exempt transportation workers
engaging in interstate commerce. The decision is in
line with the way courts in 1925 interpreted the
phrase “engaged in interstate commerce” at the time
of the FAA’s passage, as well as the way similar language has been interpreted in other statutory
schemes throughout the years. See infra, pp. 25-28.
These courts have consistently recognized that goods
that are within the continuous flow of an interstate
journey are in “interstate commerce,” even with respect to legs of that journey that are wholly within
one state’s boundaries.

2

Moreover, the Courts of Appeals are fully in
agreement that workers like the plaintiffs here, who
deliver goods within the flow of interstate commerce,
are covered by the exemption. Indeed, the Ninth Circuit reached the same conclusion, finding that the
same class of last-mile delivery drivers working for
the same defendants, were “engaged in interstate
commerce” within the meaning of Section 1.
Rittmann, 971 F.3d at 907. Nothing material has
changed since this Court’s recent consideration and
denial of Amazon’s petition for certiorari in
Rittmann, and there is nothing different about this
case that would warrant further review here.
In its Supplemental Brief, Amazon points to a recent decision by the Seventh Circuit in Saxon v. Sw.
Airlines Co., 993 F.3d 492 (7th Cir. 2021), as evidence of an alleged circuit split and urges this Court
to reverse course and grant certiorari here. But contrary to Amazon’s contentions, Saxon is irrelevant to
the issue presented here -- namely, whether a delivery driver must physically cross states lines in order
to be “engaged in interstate commerce” for purposes
of the Section 1 exemption. Instead, Saxon considers
whether a worker who does not actually transport
goods or passengers at all, but is only involved in the
loading process, nevertheless qualifies for the Section
1 exemption. Indeed, Saxon itself explains that the
First Circuit’s decision in this case addresses an issue wholly distinct from the one in Saxon:
[There are] at least two general categories of
workers employed in interstate commerce, beyond
the obvious worker who physically crosses state
lines. The first category included those who

3

worked on an intrastate leg of an interstate journey. … The First and Ninth Circuits recently relied on this line of cases to conclude that so-called
“last mile” delivery drivers fit within the § 1 exemption. See Rittmann, 971 F.3d at 912; Waithaka, 966 F.3d at 20–21. Ramp supervisors and
cargo loaders do not resemble this category,
so we have no need to decide whether we
agree with that position today. Cargo loaders
fit cleanly into the second category—those whose
work was “so closely related to [interstate transportation] as to be practically a part of it.” Shanks
v. Del., Lackawanna & W.R.R., 239 U.S. 556, 558,
36 S.Ct. 188, 60 L.Ed. 436 (1916).
Saxon, 993 F.3d at 492 (emphasis added). To the extent there is any tension between Saxon’s holding
and that of other courts (like the Fifth Circuit in
Eastus v. ISS Facility Servs., Inc., 960 F.3d 207 (5th
Cir. 2020)), this case does not provide a vehicle to resolve it, as the Seventh Circuit itself recognized.
The remainder of Amazon’s effort to manufacture
a circuit-split on the issues presented by this case is
unavailing, as this Court already concluded in rejecting the Rittmann petition for certiorari. Indeed, with
the exception of a lone dissent by a single member of
the panel in Rittmann, no court has criticized the
reasoning or holding of the First or Ninth Circuit’s
decisions against Amazon in this case and Rittmann.
The supposed “deep divisions” among the Courts of
Appeals that Amazon cites are nonexistent. In particular, Amazon’s claim that these decisions are inconsistent with then-Judge Barrett’s decision in Wallace v. Grubhub Holdings, Inc., 970 F.3d 798 (7th

4

Cir. 2020), is incorrect. Wallace cited the First Circuit’s decision in this case approvingly. It distinguished the decision below on the basis that the
takeout food that the drivers in Wallace were delivering was not on a journey from one state to another,
unlike the packages delivered by Amazon delivery
drivers. Id. at 802-03. Wallace does not hold that a
worker must physically cross state lines while transporting goods in order to qualify for the exemption.
See infra, pp. 13-14. Instead, it stands for the same
proposition that the First Circuit’s decision below
stands for: A worker transporting goods on a journey
from one state (or country) to another is engaged in
interstate commerce.
The other decisions cited by Amazon as evidence
of a circuit split do not even interpret the operative
phrase “engaged in interstate commerce” or address
whether the exemption requires workers to transport
goods across state lines. Instead, these cases involve
completely distinct questions about the Section 1 exemption: whether workers employed outside the
transportation industry, such as an account manager
for a furniture rental company, can qualify for the
exemption, when making deliveries is not the focus of
their work, see Hill v. Rent-A-Center, Inc., 398 F.3d
1286, 1289 (11th Cir. 2005); whether the exemption
covers the transportation of passengers as well as
goods and how it applies in the different factual context of ride-sharing service drivers, see Singh v. Uber
Technologies Inc., 939 F.3d 210, 228 (3d Cir. 2019);
and whether the exemption covers workers who are
one or more steps removed from the transportation of
goods, such as a ramp or gate-agent supervisor at an
airport, see Saxon, 993 F.3d 492; Eastus, 960 F.3d

5

207. None of these distinct issues is implicated by the
decision below, and none of the cited decisions conflict with its holding.
The Court should again reject Amazon’s attempt
to inject uncertainty into what has otherwise been a
consistent line of decisions interpreting the Section 1
transportation worker exemption both before and after this Court’s recent guidance in New Prime. The
First Circuit’s careful analysis is wholly consistent
with the text and structure of the statute. The Court
considered how the phrase “engaged in commerce”
was understood at the time of the FAA’s passage and
how that language had been used in other statutory
schemes. The decision gives the category of workers
“engaged in commerce” a scope consistent with that
of the other enumerated categories of workers exempted by Section 1. It also comports with Congress’s concern regarding disrupting the free flow of
goods: “last-mile” delivery drivers like the plaintiffs
play the same critically important role in ensuring
delivery of interstate shipments on the final leg of
their interstate journeys as do the drivers taking the
goods from the factory to the warehouse, or to the retail stores, lest they lie fallow in those stores and
warehouses. There is no reason for this Court to disturb this sound ruling, particularly given the absence
of disagreement among the Courts of Appeals.

6

COUNTER-STATEMENT OF THE CASE
A. Factual Background
Petitioners Amazon.com, Inc., and its subsidiary,
Amazon Logistics, Inc., (“Amazon”) are based out of
Seattle, Washington, and provide online retail and
delivery of a wide array of consumer goods to Amazon’s customers across the country. D. Ct. Dkt. 1-1,
¶¶5-6; see also D. Ct. Dkt. 31-2, ¶ 3. Amazon Logistics advertises that its “Delivery Station teams ensure that millions of packages reach their final destination as efficiently as possible” and help to “implement[] innovative delivery solutions.” See D. Ct. Dkt.
34-4; see also id. (“At Amazon Logistics (AMZL), our
goal is to provide customers with an incredible package delivery experience through the last mile of the
order.”).
Respondent Bernard Waithaka is an AmazonFlex
delivery driver who contracted with Defendants to
perform deliveries to Amazon customers. D. Ct. Dkt.
1-1, ¶3. AmazonFlex drivers perform the exact same
type of deliveries that are performed by package delivery drivers for UPS and FedEx. D. Ct. Dkt. 31-2, ⁋
4 (“Products purchased through Amazon historically
have been delivered by large third-party delivery
providers (e.g., Federal Express, UPS and the U.S.
Postal Service). More recently, Amazon has begun to
supplement its use of large providers by contracting
with smaller delivery service partners, and, now, independent contractors crowdsourced through a
smartphone-application-based program known as
Amazon Flex.”). Specifically, these drivers transport
packages on the “last-mile” of their shipment to their
final destination.

7

B. Procedural Background
Waithaka filed this putative class action case on
August 28, 2017, in Massachusetts state court, alleging that Amazon has misclassified its AmazonFlex
delivery drivers as independent contractors under
Massachusetts law, Mass. Gen. L. c. 149 § 148B. D.
Ct. Dkt. 1-1. Waithaka alleged that the drivers had
not been paid at least minimum wage for all hours
worked and had been improperly required to bear
expenses necessary to perform their jobs in violation
of Massachusetts state law, Mass. Gen. L. c. 151 §§ 1,
7, Mass. Gen. L. c. 149 § 148. Id.
After Amazon’s second attempt to remove the case
to federal court succeeded, Amazon filed a Motion to
Compel Arbitration, or in the Alternative, to Transfer or Stay. D. Ct. Dkt. 26, D. Ct. Dkt. 29. Following
thorough briefing and oral argument by the parties,
the District Court issued an Order denying Amazon’s
Motion to Compel Arbitration and finding that
Waithaka and the putative class are exempt from the
FAA’s coverage. App., infra, at 54a-65a. The court
held that AmazonFlex delivery drivers were “engaged in interstate commerce” as that term is understood in Section 1 of the FAA because they transport
goods that are within the flow of interstate commerce
on one intrastate leg of their continuous interstate
shipment. App. at 57a.
The District Court noted that a consensus had
emerged among courts (including the Supreme Court
after its New Prime decision) that truck drivers were
transportation workers, like railroad employees and
seamen, and therefore fell under the exemption. App.
at 57a-58a. The court noted that unlike truck driv-

8

ers, “last-mile drivers” like AmazonFlex drivers do
not necessarily carry goods across state lines; however, the court rejected Defendants’ argument that this
fact was dispositive and that transportation workers
must necessarily cross state lines or great distances
to qualify as engaging in interstate commerce. App.
at 59a-62a. The court noted that a number of other
courts had found that drivers performing intrastate
delivery of goods within the continuous flow of interstate commerce still qualified for the exemption. App.
at 61a-62a. The court distinguished a line of cases
involving local takeout food delivery workers in the
“gig economy,” finding that the “goods” delivered by
those workers were not within the flow of interstate
commerce and had come to rest at the local restaurant where they were transformed into meals,
whereas there was a continuity of movement of the
packages being delivered by AmazonFlex drivers
from out-of-state to the customer’s doorstep. App. at
59a-60a.
The District Court then considered the enforceability of Amazon’s agreement under state law. The
District Court ultimately concluded that under Massachusetts law, Amazon’s arbitration agreement is
unenforceable because class action waivers embedded in arbitration agreements violate state public
policy in a case such as this. App. at 70a-76a.
On appeal, the First Circuit agreed with the District Court’s reasoning and affirmed. Following this
Court’s recently enunciated guidance in New Prime,
which likewise interpreted Section 1 of the FAA, the
First Circuit looked to the statutory text and its “ordinary meaning at the time congress enacted the

9

statute.” App. 12a (citing New Prime, 139 S. Ct. at
539). The court began by considering contemporaneous statutes using the phrase “engaged in interstate
commerce” at the time of the FAA’s passage in 1925.
App. 14a-23a. The court undertook a careful and
lengthy analysis of decisions under the Federal Employees Liability Act (“FELA”) of 1908, 45 U.S.C.A. §
51, which interpreted the phrase “engaged in interstate commerce” with respect to railroad workers in
the years leading up to the FAA’s passage. Id. at 16a23a. The court noted that “[w]hether a worker had
moved across state lines was not dispositive” for purposes of FELA. App. 17a. Instead, workers “engaged
in interstate commerce” were found to include “at
least two other categories of people: (1) those who
transported goods or passengers that were moving
interstate, and (2) those who were not involved in
transport themselves but were in positions so closely
related to interstate transportation as to be practically a part of it.” Id. at 17a-18a (internal citations
omitted). The court focused its analysis on the former
category or workers, reserving any decision about the
second category of workers for another day and another case that presented that distinct issue. App. at
18a, n. 9.
Thus, the First Circuit observed that a worker operating a train exclusively within the state of Pennsylvania was nonetheless “engaged in interstate
commerce” because the coal on the train was being
shipped interstate, and the worker was performing
an intrastate leg of the larger interstate journey.
App. at 17a-18a (discussing Philadelphia & Reading
Railway Co. v. Hancock, 253 U.S. 284, 40 S.Ct. 512,
64 L.Ed. 907 (1920)). Like the railroad workers under

10

FELA, last-mile delivery drivers like AmazonFlex
drivers here make intrastate deliveries of goods on
the final leg of their interstate shipment. Ultimately,
the Court held that “[c]onsistent with the Supreme
Court’s focus on ‘the flow of interstate commerce’ in
Circuit City, these cases show that workers moving
goods or people destined for, or coming from, other
states -- even if the workers were responsible only for
an intrastate leg of that interstate journey -- were
understood to be ‘engaged in interstate commerce’ in
1925.” App. 23a.
Amazon made a litany of arguments against considering the FELA cases as a guide to interpreting
the Section 1 exemption, each of which the First Circuit carefully considered and properly rejected. App.
at 20a-23a. The First Circuit also considered the
structure of the residual clause and found that it
supported its interpretation rather than Amazon’s.
The Court noted that the nature of the business employing the transportation workers in question is relevant insofar as the residual clause should be interpreted in light of the preceding categories of workers—seamen and railroad employees—which refer to
workers employed by particular industries involved
in the interstate movement of goods. App. at 24a-25a.
Having concluded that Amazon delivery drivers
were exempt from the FAA, the Court considered
what state law should apply in the absence of the
FAA and whether the contract was enforceable under
state law. The Court concluded that “Massachusetts
would treat the class waiver provisions in the
Agreement as contrary to the Commonwealth’s fundamental public policy …” App. 32a. Thus, the

11

Court concluded that “individual arbitration cannot
be compelled pursuant to state law here.” Id.; see also
discussion at App. 33a-52a.
Amazon petitioned for rehearing en banc, and the
full First Circuit denied the petition.
REASONS FOR DENYING THE WRIT
A. There is No Circuit Split Regarding the
Correct Interpretation of the Phrase
“Engaged in Foreign or Interstate Commerce” in Section 1 of the FAA
Although the Circuits are in agreement on the issue raised by this case, Amazon attempts to manufacture a circuit split by arguing that some courts
considering Section 1 (such as the First Circuit below
and the Ninth Circuit in Rittmann) have focused
their analysis on the nature of a business’s activities
while other courts have focused their analysis on the
workers’ activities and whether they physically
transport goods across state lines. Pet. at 9-10. According to Amazon, this alleged inconsistency has led
to confusion and inconsistent results.
Amazon’s argument is wrong. First, the argument
rests on a mischaracterization of the First Circuit’s
analysis in this case as focusing only on the nature of
the company’s activities rather than the workers’ activities; in reality, the Court considered both the nature of the business for which Amazon drivers perform their work (the interstate shipment and delivery of goods) and the nature of the work the drivers
themselves perform (the “last-mile” delivery of inter-

12

state shipments to their final destination). As the
First Circuit explained:
Although our ultimate inquiry is whether a class
of workers is ‘engaged in ... interstate commerce,’
… [t]he nature of the business for which a class of
workers perform their activities must inform that
assessment. After all, workers’ activities are not
pursued for their own sake. Rather, they carry out
the objectives of a business, which may or may
not involve the movement of persons or activities
within the flow of interstate commerce… [T]he
language of the residual clause does not foreclose
taking into account the company's business when
considering how to classify the nature and activities of the workers at issue.
App. at 24a.
Thus, the First Circuit looked to both the nature
of the business for which the workers performed services and the activities of the workers—an approach
that is fully consistent with that of every other court
to consider the contours of Section 1.
Amazon insists that other courts in the Fifth,
Eleventh, and Seventh Circuits have looked exclusively to the activities of the class of workers in question and not to the nature of the business for which
the work is performed. But again, Amazon mischaracterizes the cases to create the appearance of disagreement where none exists. None of the decisions
Amazon cites holds that a court must ignore the nature of an employer’s business in considering whether an employee is “engaged in commerce.”

13

For instance, Amazon argues that the Seventh
Circuit’s decision in Wallace is “inconsistent” with
the First Circuit’s decision below because Wallace focuses on “what the worker does” and whether the
workers’ activities involve “the act of moving [] goods
across state or national borders.” Pet. at 11. But
Amazon grossly mischaracterizes the holding of Wallace by implying that Wallace held that workers
must physically cross state lines to qualify for the
Section 1 exemption. The decision held nothing of the
sort.1 The Wallace court distinguished between
workers who transport goods or people as one leg of a
larger interstate chain of commerce (i.e. workers
“connected…to the act of moving [] goods across state
or national borders” like the last-mile delivery drivers at issue here) and workers who deliver goods or
people that happen to at some time in the past have
originated out of state (such as “dry cleaners who deliver pressed shirts” that happen to be “manufactured in Taiwan” and “ice cream truck drivers selling
treats” that happen to be “made with milk from an
out-of-state dairy.”). Wallace, 970 F.3d at 802. Thus,
––––––––––––––––––––––––

Indeed, the Seventh Circuit has since clarified that “[a]ctual
transportation is not limited to the precise moment either goods
or the people accompanying them cross state lines.” Saxon, 993
F.3d at 498. If Wallace had held otherwise, the Saxon panel
would have been bound by its holding. Likewise, prior decisions
by the Seventh Circuit do not hold that crossing state lines is
required to qualify for the Section 1 exemption but only that
doing so may be sufficient to render delivery drivers exempt,
even when they only “occasionally” cross state lines in the
course of their deliveries. See, e.g., Int’l Broth. of Teamsters Local Union No. 50 v. Kienstra Precast, LLC, 702 F.3d 954, 957
(7th Cir. 2012); Cent. States, Se. & Sw. Areas Pension Fund v.
Cent. Cartage Co., 84 F.3d 988, 993 (7th Cir. 1996).
1

14

Wallace affirmed an order compelling arbitration
with respect to local takeout food delivery drivers -the very drivers that the district court persuasively
distinguished from AmazonFlex drivers who are
more akin to FedEx and UPS last-mile delivery drivers, completing an interstate delivery of goods to
their final destination. App. at 59a-60a; see also
Rittmann, 971 F.3d at 916 (distinguishing “local food
delivery drivers” like those at issue in Wallace “because the prepared meals from local restaurants are
not a type of good that are indisputably part of the
stream of commerce”).
Nothing in Wallace’s analysis is inconsistent with
the “flow of commerce” formulation embraced by the
First and Ninth Circuits. Indeed, Wallace was decided after the First Circuit’s decision in this case and
cited it approvingly. 970 F.3d at 801-02, n. 2.2 Wallace’s test for determining whether Section 1 applies ̶
which asks whether interstate movement of goods is
a central part of the workers’ job description ̶ is fully
consistent with the decision below because here, the
drivers’ job description of delivering goods on the final leg of their interstate journey shows that “the interstate movement of goods is a central part of the
job description.” Wallace, 970 F.3d at 803. As set
forth above, the First Circuit considered both the
––––––––––––––––––––––––

Amazon dismisses this fact, arguing that Wallace simply
made a “passing comment about a fact pattern not before the
court” which “does not show that the Seventh Circuit agrees
with the First Circuit.” Pet. at 12. But nothing in the Wallace
decision suggests that the Seventh Circuit disagrees with the
First Circuit. It is Amazon that is attempting to imply a disagreement between the Seventh and First Circuits that is simply
not there.
2

15

workers’ job duties and the nature of the business for
which they were performed, only insofar as it helps
to define the “activities of the workers at issue.” App.
at 24a; see also Saxon, 993 F.3d at 497 (agreeing that
“[t]he employer’s business might well inform the ‘ultimate inquiry’ whether its employees are engaged in
commerce … but the employer is not itself the inquiry”) (citing Rittmann, 971 F.3d at 917; Waithaka,
966 F.3d at 22–23).
Similarly, Amazon claims that the Fifth Circuit’s
decision in Eastus, finding that a supervisor of gate
and ticketing agents at an airport was not exempt
under Section 1, turns on the activities of the workers rather than the business of the airlines, which
are clearly involved in interstate transportation of
goods and passengers. Pet. at 12-13. But as explained
above, Waithaka and Rittmann do not hold that the
nature of the business is paramount; if that were so,
then presumably any employee of Amazon, from a
call center representative assisting with orders to a
janitor to an executive, would be exempt under Section 1 simply because the company is engaged in the
interstate shipment of goods, without regard to the
actual activities performed by the workers. But
Waithaka and Rittmann hold nothing of the sort; instead, these cases merely make the (uncontroversial)
observation that “the nature of the business for
which a class of workers perform their activities
must inform th[e] assessment.” App. at 24a.
This observation that the nature of the business
must inform the Section 1 analysis accords with the
approach taken by the other courts cited by Amazon
as well. For example, in Hill v. Rent-A-Ctr., Inc., cit-

16

ed by Amazon at p. 13 of the Petition, the Eleventh
Circuit held that an account manager for a furniture
rental company was not exempt under Section 1, noting that “[t]he emphasis…[i]s on a class of workers in
the transportation industry, rather than on workers
who incidentally transported goods interstate as part
of their job in an industry that would otherwise be
unregulated.” 398 F.3d at 1289 (emphasis added).
By considering the industry in which the plaintiff
worked, as well as his actual job duties, the Eleventh
Circuit, like the First and Ninth Circuits, concluded
that both the nature of the business and the activities of the worker were relevant to the inquiry; there,
the plaintiff had occasion to make some interstate
deliveries of furniture, but it was only one small part
of his duties as an account manager, and the furniture rental company he worked for was not involved
in the interstate shipment of goods, unlike Amazon
in this case.
In sum, the decisions of the Seventh, Fifth, and
Eleventh Circuits in Wallace, Eastus, and Hill do not
conflict with the holding in this case. Each involved
very different facts, but their analyses were wholly
consistent with the approach taken here of considering both the Plaintiff’s work and the nature of the
business for which it was performed. There is no inter-Circuit conflict.
Amazon also contends that the Third and Eighth
Circuits have adopted “multifactor standards” to determine Section 1’s applicability, which are inconsistent with the standard applied by the Ninth Circuit here. Pet. at 14-15 (citing Singh v. Uber Technologies Inc., 939 F.3d at 228, and Lenz v. Yellow

17

Transp., Inc., 431 F.3d 348, 352 & n.2 (8th Cir.
2005)). But Amazon is incorrect on both counts. The
Eighth Circuit in Lenz simply applied criteria to determine if the worker in question was a “transportation worker,” even though the worker did not personally perform any transportation activities. Lenz was
focused on a different question, and in analyzing that
question, it harmonized various factors considered by
other circuit courts in applying the transportation
worker exemption. Thus, Lenz’s analysis is not at all
inconsistent with the First Circuit’s decision here.
Likewise, the Third Circuit in Singh articulated a
test for determining whether workers are “engaged
in interstate commerce” that is entirely consistent
with the First Circuit’s decision here, finding that to
qualify for the exemption, a class of workers must be
engaged in commerce or work so closely related as to
be in practical effect a part of interstate transportation. 939 F.3d at 219. However, the Singh court remanded the case because it concluded that it had inadequate facts to address “the engaged-in-commerce”
inquiry, which the district court did not reach below.
Id. at 214, 226-27.3 Moreover, Singh was addressed
more to the question of whether transportation of
passengers could qualify for the exemption. To the
extent it addressed what it means to be “engaged in
interstate commerce,” its vision is entirely consistent
––––––––––––––––––––––––

The district court in Singh dismissed the case on a motion
to dismiss, prior to any discovery, based on the court’s conclusion that a class of workers transporting passengers (as opposed
to goods) could not qualify for the Section 1 exemption. Id. at
214. The bulk of the Third Circuit’s decision was devoted to resolving this issue and ultimately reversing the district court.
3

18

with Waithaka insofar as the court focused on
whether the worker’s job is so inextricably linked to
interstate commerce as to be in practical effect a part
of it.
Neither Lenz nor Singh had occasion to consider
whether Section 1 requires that workers physically
cross state lines. In other words, neither of these
cases are on point with respect to the issue addressed
in this case. Because they addressed different issues,
the asserted difference between their “approach” and
that of the First Circuit’s here, even if it existed,
would not amount to a Circuit split, as Amazon asserts.
In a Supplemental Brief, filed after its Petition,
Amazon now also cites the Seventh Circuit’s recent
decision in Saxon, 993 F.3d 492, as further evidence
that a “circuit split [exists] over whether intrastate
transportation workers are exempt from the Federal
Arbitration Act (FAA), 9 U.S.C. 1 et seq.” See Suppl.
Br. at 1. Ironically, in light of the Petition’s assertion
that the decision below and the Ninth Circuit’s decision in Rittmann are in conflict with the position of
the Seventh Circuit (in Wallace), the Supplemental
Brief tries to align the Seventh Circuit with the First
and Ninth and in opposition to the Fifth. Both arguments cannot be correct, and in fact neither is. Saxon
does not address the intrastate transportation of
goods that are traveling on an interstate journey.
Like Eastus, it concerned workers who did not actually transport goods at all but were instead involved
in the loading and unloading process. To the extent
Saxon and Eastus are in tension with one another,
this case offers no opportunity to resolve the disa-

19

greement as it simply does not raise the central issue
of when a worker who does not transport goods or
passengers at all can qualify for the exemption. By
the same token, neither Saxon nor Eastus speak to
the central issue here: whether a driver transporting
goods within the flow of interstate commerce must
literally cross state lines in order to qualify for the
Section 1 exemption. See App. at 18a (“[W]e do not
determine whether the second category of workers
considered to be ‘engaged in interstate commerce’ for
purposes of the FELA -- those who were ‘engaged in
interstate commerce’ by virtue of the close relationship between their work and interstate transportation -- are also transportation workers ‘engaged in . .
. interstate commerce’ for purposes of the FAA.”);
Saxon, 993 F.3d at 501 (“The FELA cases identify at
least two general categories of workers employed in
interstate commerce, beyond the obvious worker who
physically crosses state lines. The first category included those who worked on an intrastate leg of an
interstate journey….Cargo loaders fit cleanly into the
second category—those whose work was ‘so closely
related to [interstate transportation] as to be practically a part of it.’”).4 In short, the Seventh Circuit
acknowledged that its decision in Saxon did not consider the issue presented here because it was irrelevant to the issue before it.
––––––––––––––––––––––––

Amazon argues that “[b]ecause Justice Barrett sat on the
original Seventh Circuit panel, see Saxon v. Sw. Airlines Co.,
No. 19-3226 (7th Cir. July 8, 2020), ECF No. 36, it is doubtful
the full Court could consider that case” and that this case would
therefore provide “a better vehicle” for the full court to consider.
Suppl. Br. at 3. But this argument misses the mark because
this case concerns a fundamentally different and distinct issue
from Saxon.
4

20

Amazon stretches to find any difference in these
cases that it can spin into a “deep division” warranting this Court’s intervention. But as set forth above,
there is no Circuit split here that would require this
Court’s extraordinary intervention. To the contrary,
every appellate court to have considered the question
has agreed: workers who transport goods that are
traveling from one state to another within the flow of
interstate commerce are exempt from the FAA.
B. The First Circuit’s Approach Correctly
Gives Effect to the Language and Purpose of the Statute and Follows Well Established Precedent
Amazon also argues that review is required because the First Circuit reached the wrong conclusion
in finding Amazon’s last-mile package delivery drivers were exempt from the FAA’s coverage. In the absence of a conflict, such a factbound claim of error
would not warrant review by this Court, even if it
had merit. Here, the claim of error is baseless: the
decision below is sound, as the full court recognized
in denying Amazon’s petition for en banc rehearing
(and as this Court evidently also recognized in denying the petition for certiorari in Rittmann, which was
decided after this case and adopted its sound analysis).

21

i. The First Circuit Properly Looked
to the Ordinary Meaning of the
Text of Section 1 at the Time of the
FAA’s Passage
According to Amazon, the statutory text of Section
1 is clear that the exemption only covers “workers
who, considered as a class, are engaged in nonlocal
transportation across state or national boundaries.”
Pet. at 16.5 But in fact, it is Amazon’s reading of the
statute that is not supported by its text; nowhere
does the exemption refer to “nonlocal” transportation
or mention state or national boundaries. Amazon argues that dictionary definitions of “interstate commerce” and “engage” prove that the exemption applies only to workers occupied or employed in the
transportation of goods between one state and another, citing the dissent in Rittmann. See Pet. at 16.
But, as the Rittmann majority pointed out, the dissent relied upon the “the same dictionaries we use to
ascertain the FAA’s meaning at its enactment.”
Rittmann, 971 F.3d at 918, n. 9.

––––––––––––––––––––––––

Amazon drivers do cross state lines at times to make deliveries and sometimes travel lengthy distances to make deliveries. See Rittmann, Civ. A. No. 16-1554, D. Ct. Dkt. 106; D. Ct.
Dkt. 83, ¶ 22. The factual record does not include information
about how often drivers, as a class, cross states lines or the average distance of a delivery. Plaintiff does not believe that these
facts are relevant or should have any bearing on the outcome,
but the fact that the record here is silent on these issues further
counsels against granting the petition. As set forth infra, Part
C, this case would not be the right vehicle for the Court to take
up these questions.
5

22

Dictionary definitions from the years prior to the
FAA’s enactment in 1925 make clear that being engaged in interstate commerce at the time included
carrying out intrastate legs of the transport of goods
that were being shipped from one state to another.
See, e.g., Bouvier’s Law Dictionary and Concise Encyclopedia 532 (8th ed. 1914) (explaining that goods
were in interstate commerce from the time they were
“actually shipped or started in the course of transportation to another state or foreign country” until
reaching their final destination, even if the final leg
of that journey was entirely within a single state;
“[A]n express company taking goods from a steamer
or railroad and transporting them through the street
of the city to the consignee is still engaged in interstate commerce”). Amazon’s interpretation requires
this Court to ignore the widely understood meaning
of “interstate commerce” in 1925.
The First Circuit’s analysis is consistent with this
Court’s recent guidance in New Prime “that words
generally should be ‘interpreted as taking their ordinary ... meaning ... at the time Congress enacted the
statute.” 139 S. Ct. at 539 (quoting Wisconsin Central
Ltd. v. United States, 138 S.Ct. 2067, 2074 (2018)).
The First Circuit, like many courts before it, looked
to the FELA cases that predated Congress’s enactment of the FAA for guidance regarding how to interpret the FAA, and in particular, the phrase “engaged in interstate commerce” in Section 1. Tenney
Eng'g, Inc. v. United Elec. Radio & Mach. Workers of
Am., (U.E.) Local 437, 207 F.2d 450, 453 (3d Cir.
1953). In cases decided under FELA, this Court held
that workers who performed only intrastate transportation and who never crossed state lines were

23

nonetheless “engaged in interstate commerce”. For
example, in Philadelphia & R R Co v. Hancock, 253
U.S. 284, 285 (1920), the Court held that even where
“[t]he duties of the [train crew member] never took
him out of Pennsylvania,” and he solely transported
coal to a destination two miles away, he was nonetheless engaged in interstate commerce because the
coal he was transporting was bound for another
state. Id. at 286. The FELA decisions are directly
analogous and provide clear support for the First
Circuit’s decision below.
ii. The First Circuit’s Opinion Gives
“Engaged in Commerce” a Meaning
Consistent with the Other Enumerated Categories of Workers in Section 1: Railroad Employees and
Seamen
Amazon also argues that the First Circuit’s opinion is flawed because Amazon’s “last-mile” delivery
drivers are not similar to the other enumerated categories of workers in the statute, railroad employees
and seamen. Pet. at 17-18. But nothing about the
terms “seamen” and “railroad employees” implies
that these categories of workers only perform longdistance deliveries across state lines. Indeed, this
Court recognized this fact in New Prime when it
looked to statutes such as the Transportation Act of
1920, 66 Cong. Ch. 91 (1920), 41 Stat. 456, and the
Erdman Act, 55 Cong. Ch. 370 (1898), 30 Stat. 424,
to better understand how the term “railroad employees” was understood when the FAA was passed. New
Prime, 139 S. Ct. at 542-43 (“In 1922, for example,
the Railroad Labor Board interpreted the word ‘em-

24

ployee’ in the Transportation Act of 1920 to refer to
anyone ‘engaged in the customary work directly contributory to the operation of the railroads.’ ”). For instance, the Erdman Act “defined ‘employees’ as ‘all
persons actually engaged in any capacity in train operation or train service of any description.’ ” Id. at
543, n. 12. Similarly, the term “seamen” was understood to encompass “shipboard surgeons who tended
injured sailors.” Id. at 543; see also The Sea Lark, 14
F. 2d 201, 201-02 (W.D. Wash 1926) (describing
cooks, surgeons, and bartenders as seamen, and
holding that musicians on a boat used for excursions
were seamen).
The statutes and cases cited by this Court in New
Prime make clear that seamen are individuals employed on a boat, and railroad employees are individuals employed (in any capacity) by railroads; nothing
about these terms suggest that seamen and railroad
employees must, by definition, physically transport
goods across state lines or over long distances. By extension, workers who are drivers, delivering interstate goods, employed as part of an interstate supply
chain, are plainly in the same general category of
transportation workers engaged in interstate commerce, whether or not they themselves physically
cross state lines. Thus, the First Circuit’s decision is
true to the text of the statute and properly gives effect to the other enumerated categories of workers in
Section 1.

25

iii. The First Circuit’s Reliance on the
FELA Cases Was Sound (and Consistent with the Way Many Other
Courts Have Interpreted Similar
Language)
Next, Amazon attacks the First Circuit’s reliance
on the FELA cases, Pet. at 18-20, but its arguments
misfire for a number of reasons. First, the Court of
Appeals’ analysis is directly in step with this Court’s
analysis in New Prime ̶ to glean the meaning of the
words in the FAA exemption by looking at the meaning of those words at the time of enactment. See New
Prime, 139 S. Ct. at 539. Likewise, it is consistent
with the Court’s approach in Circuit City, where the
Court likewise “examined how the[] respective
phrases… ‘in commerce’ and ‘engaged in commerce’…
had been interpreted in other statutory contexts.”
App. at 11a (quoting Circuit City Stores Inc. v. Adams, 532 U.S. 105, 115-17 (2001)).
Amazon argues that, because the statutory language in FELA is not identical to that used in Section 1 of the FAA, the First Circuit erred in looking
to the FELA precedents. Pet. at 19. But this argument is nonsensical. Indeed, as set forth above, this
Court in Circuit City repeatedly looked to the way
similar (though not identical) language was used in
other statutes. See Circuit City, 532 U.S. at 117-18
(discussing how the phrases “in commerce” and “engaged in commerce” have been interpreted under the
Federal Trade Commission Act, the Clayton Act, and
the Robinson-Patman Act). Indeed, the language of
the FELA is interchangeable with the language of
the FAA insofar as courts have repeatedly held that

26

the inquiry under the FELA is whether the worker in
question is “engaged in interstate commerce.” Philadelphia, B. & W. R.R. v. Smith, 250 U.S. at 102, 104
(1919); Philadelphia & R. Ry. Co v. Di Donato, 256
U.S. 327, 329–331 (1921) (using phrases interchangeably).
Amazon also argues that “FELA’s jurisdictional
provision requires that the rail carrier be ‘engaging
in commerce between any of the several States’” and
is therefore “oriented more around the work of the
common carrier” than the worker. Pet. at 19. But this
Court’s case law makes clear that the inquiry under
the FELA is whether the employee was engaged in
interstate commerce. See, e.g., Philadelphia, B. & W.
R.R., 250 U.S. at 104 (stating that question is whether employee was “engaged in interstate commerce
within the meaning of the statute” and answering
that question by stating that employee “was employed . . . in interstate commerce”). The First Circuit
correctly rejected this very argument, noting that
“the FELA applied only when both the carrier and
the injured employee had been engaged in interstate
commerce.” App. at 21a. “That is, the FELA was concerned with the activities of employees, just as the
FAA is.” Id. at 21a-22a.
Amazon also argues that FELA’s purposes are the
opposite of the FAA exemption’s purposes in that
FELA was a broad remedial statute that should be
interpreted liberally construed, such that the FELA
precedents are inapposite. Pet. at 19-20. But at the
time of the FELA’s passage, the phrase “engaged in
commerce” had to be construed narrowly because this
Court had held that Congress’s Commerce Clause

27

power was narrow. See, e.g. The Employers’ Liability
Cases, 207 US 463 (1908). Regardless of the purpose
of FELA, that phrase itself was given a very strict,
narrow construction or the statute would have exceeded Congress’s authority. The First Circuit therefore correctly rejected Amazon’s argument, noting
that “there is no indication that the remedial purpose
of the FELA affected the Supreme Court’s conclusion
that injured railroad workers who were transporting
within one state goods destined for or coming from
other states—activities comparable to those performed by Waithaka—were engaged in interstate
commerce.” App. at 22a. Instead, in “the FELA precedents that we have discussed, the question before
the Court was the same as it is here: whether certain
transportation workers engaged in interstate commerce.” Id.
Finally, Amazon argues that the reliance on the
FELA decisions is inappropriate insofar as the FELA
was later amended in 1939, and it insists that the
First Circuit is “breathing new life into this repudiated precedent.” Pet. at 19-20. But the fact that the
FELA statute was subsequently amended does not
detract from the fact that it provides invaluable insight into the way the phrase “engaged in commerce”
was interpreted at the time of the FAA’s passage.
Moreover, the FELA cases’ interpretation of “engaged in commerce” as embracing movement of goods
“within the flow of interstate commerce” is consistent
with the way other statutory schemes have interpreted the same language. Circuit City, 532 U.S. at
118 (citing Gulf Oil Corp. v. Copp Paving Co., 419
U.S. 186, 195 (1974) (noting that the phrase “engaged in commerce” in the Clayton and Robinson-

28

Patman Acts “appear[] to denote only persons or activities within the flow of interstate commerce.”)).
There is simply no support for the notion that this
interpretation of the phrase “engaged in interstate
commerce” has been “abrogated” as Amazon claims;
on the contrary, as the court in Rittmann noted, “the
Supreme Court has held that the actual crossing of
state lines is not necessary to be “engaged in commerce” for purposes of the Clayton and RobinsonPatman Acts” and other statutes. Rittmann, 971 F.3d
at 913.6
Amazon insists that its favored interpretation of
Section 1 is more administrable and truer to the
FAA’s pro-arbitration purposes. Pet. at 20. But as
this Court recognized in New Prime, “[i]f courts felt
free to pave over bumpy statutory texts in the name
of more expeditiously advancing a policy goal, we
would risk failing to ‘tak[e]...account of’ legislative
compromises essential to a law’s passage and, in that
way, thwart rather than honor ‘the effectuation of
––––––––––––––––––––––––
Amazon cites People of State of New York ex rel. Pennsylvania R. Co. v. Knight, 192 U.S. 21, 26, 24 S. Ct. 202, 202, 48 L.
Ed. 325 (1904), at n. 2 of its Petition, arguing that “more factually similar decisions from the pre-FAA era undercut” the First
Circuit’s decision. But Knight actually supports Plaintiff’s position. The Court acknowledged that “a single act of carriage or
transportation wholly within a state may be part of a continuous interstate carriage or transportation,” and observed that a
leg of an interstate shipment from New York to Pennsylvania
which occurs “only within the limits of New York” is nonetheless interstate in nature. Knight supports the First Circuit’s
interpretation here, as Rittmann correctly recognized. See
Rittmann, 971 F.3d at 915-16.
6

29

congressional intent.’” New Prime Inc., 139 S. Ct. at
543.
In any case, Amazon’s proposed reading of Section
1 would not result in a rule that is any clearer or
more administrable than the one adopted by the
First and Ninth Circuits. Even if this Court were to
require workers to physically cross state lines to
qualify for the exemption, there would still be debate
about who qualifies. For instance, Amazon refers to
“local deliveries” as falling outside the exemption,
but some AmazonFlex drivers have traveled long distances to make deliveries or have crossed state lines
to deliver a package. See Rittmann, Civ. A. No. 161554-JCC, D. Ct. Dkt. 106; D. Ct. Dkt. 83, ¶ 22. The
test focuses on the “class of workers”, rather than individual workers. See Singh, 939 F.3d at 227;
Bacashihua v. U.S. Postal Service, 859 F.2d 402, 405
(6th Cir. 1988). If crossing state lines were the touchstone of the test, parties would be plunged into discovery regarding how often this type of delivery happened, and there would be litigation about how often
a class of workers must cross state lines to be
“enough” to qualify for the exemption. See Kienstra,
702 F.3d at 957 (where truckers estimated making a
few dozen interstate deliveries out of 1500 to 1750
deliveries each year, the court held that “[a]lthough
Illinois Concrete was primarily engaged in operations within Illinois, its truckers occasionally transported loads into Missouri. This means that the
truckers were interstate transportation workers
within the meaning of § 1 of the FAA.”) (emphasis
added); Cent. States, Se. & Sw. Areas Pension Fund
v. Cent. Cartage Co., 84 F.3d 988, 993 (7th Cir. 1996)
(Section 1 exemption applied even where defendant

30

was “primarily engaged in local trucking and occasionally transports cartage across state lines”) (emphasis added). Likewise, what constitutes a “local delivery” ̶ a phrase that appears nowhere in the statute
̶ would no doubt be the subject of heated debate.
Contrary to Amazon’s contentions, there is nothing arbitrary about the result of the First and Ninth
Circuit’s test below; it is precisely how this Court has
interpreted what it means to be engaged in interstate
commerce for more than a century. Amazon attempts
to compare the work of the drivers here to that of
other so-called gig economy workers like the takeout
food delivery drivers at issue in Wallace and the Uber drivers at issue in Singh. Pet. at 15. However, the
work performed by AmazonFlex drivers is materially
different insofar as they are delivering packages that
have clearly traveled interstate, like FedEx, UPS, or
USPS deliveries. If GrubHub drivers are modern-day
pizza delivery drivers and Uber drivers modern-day
cab drivers, then the Amazon drivers here are modern-day UPS drivers. Courts have long distinguished
between such work.
C. This Case is a Poor Vehicle for the Court
to Interpret the Meaning of “Engaged in
Interstate Commerce” in Section 1 of the
FAA
Finally, even if this Court believes that the proper
interpretation of the transportation worker exemption may at some point warrant review by this Court,
this is not the right case or the right time for this
Court to take up this question.

31

First, every circuit to have considered the question presented here has agreed that workers do not
have to physically cross state lines in order to fall
under Section 1’s exemption. See Waithaka, 966 F.3d
10; Rittmann, 971 F.3d 904; Palcko v. Airborne Express, Inc., 372 F.3d 588, 593-94 (3d Cir. 2004)
(“[H]ad Congress intended the residual clause of the
exemption to cover only those workers who physically
transported goods across state lines, it would have
phrased the
FAA's
language
accordingly.”);
Bacashihua, 859 F.2d 402; Am. Postal Workers Union, AFL-CIO v. U.S. Postal Serv., 823 F.2d 466, 473
(11th Cir. 1987).
Given that the Courts of Appeals that have considered the issue are in agreement that a worker
need not personally cross state lines to be “engaged
in commerce” under Section 1—and their conclusion
faithfully adheres to the text of the statute and this
Court’s precedent—this Court will likely not need to
weigh in at all. Indeed, as more courts confront this
issue and have occasion to grapple with the same
question, a consensus will likely continue to grow
that drivers like the Amazon drivers here, who
transport goods on the “last mile” of their interstate
journey, are engaged in interstate commerce under
Section 1 for the reasons noted above. Thus, the
Court should at least wait until it has obtained “the
benefit it receives from permitting several courts of
appeals to explore a difficult question before [it]
grants certiorari.” United States v. Mendoza, 464
U.S. 154, 160 (1984).
Moreover, as set forth above, Amazon conflates
different questions about the proper contours of the

32

transportation worker exemption in its effort to create the illusion of a current circuit-split among the
courts of appeals. In reality, the cases cited by Amazon turn on distinct questions, not presented by this
case, such as whether workers who are a step removed from transporting goods can qualify for the
exemption, see Eastus, 960 F.3d 207; Saxon, 993 F.3d
492, or whether the exemption covers the transportation of passengers as well as goods and how it applies
in the different factual context of ride-sharing service
drivers, see Singh, 939 F.3d 210. There are only a
handful of appellate decisions that actually speak to
the question presented by this case: whether being
“engaged in interstate commerce” for purposes of
Section 1 requires that a worker physically transport
goods across state lines, and those decisions all consistently agree that it does not.
Because the disagreements Amazon attempts to
manufacture do not even involve the question presented here, this case is plainly not the right vehicle
to decide the issues Amazon describes. This Court
recognized as much in denying certiorari in the
Rittmann case, which employs the same reasoning to
reach the same conclusion as the First Circuit in this
case. The recent Saxon decision changes nothing.
Thus, there is no reason for this Court to depart from
its own sound decision to deny certiorari on this very
subject earlier this year.

33

CONCLUSION
The petition should be denied.
Respectfully submitted,
Shannon Liss-Riordan, Counsel of Record
Harold Lichten
Adelaide H. Pagano
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, Massachusetts 02116
sliss@llrlaw.com
Counsel for Respondent
May 2021

